                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
               Reporting Entity: Department of Transportation - OIG
             Month Ending Date: 12/31/2009

                                                          Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays      Direct or      Ordering TAFS
                                                                                                                                          Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)                         Y - US            $1,437,608            $1,295,260            Direct            N/A
      Transportation - OIG       Transportation - OIG -
 1                               Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010        Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations         Gross Outlays
No.
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                             $0               $0
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                          DOT OIG Monthly Report Num 10 12-31-09
                                                                          OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 12/31/2009

                         FTE Working on Recovery
                                                                                                                                Testimonies:
     Fiscal Year           2009                2010                Cumulative
      Newly Hired FTE
                           0.77                 2.12                  2.89                                                    Provided (monthly):     0
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 9.74                 11.28                                                 Provided (cumulative):     3
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 0.00                 15.20
         (cumulative):

                                                                                                                    Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                  Investigations                                                            Training / Outreach
                                                                                                                                  Reviews
          Monthly Data                         Monthly Data                              Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                     Training Sessions
            Received:      5                           Received:      0              Opened (this month):      4            Initiated (this month):   3                                    5
                                                                                                                                                                            Provided:
                                                                                Active (as of the end of the           In Process (as of the end of
                                                       Accepted:      0                                        13                                     9           Individuals Trained:    395
                                                                                                    month):                            the month):

                                                                                                                       Completed Final Published                    Hours of Training
                                                                                         Pending Decision:     10                                     0                                   295
                                                                                                                                Work Products:                             Provided:

                                                                                                                        Priority Interim Published                 Outreach Sessions
                                                                                    Closed without Action:     0                                      0                                    4
                                                                                                                                   Work Products:                        Conducted:

                                                                                                                               Unpublished Work
                                                                                 Accepted for Prosecution:     0                                      0
                                                                                                                                      Products*:
                                                                                      Prosecution Denied:    0
                                                                                   Referred for Alternative
                                                                                                             0
                                                                                                Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                       Completed Final Published                     Training Sessions
            Received:     199                          Received:      0             Closed without Action:     1                                      6                                   155
                                                                                                                                Work Products:                              Provided:

                                                                                                                        Priority Interim Published
                                                       Accepted:      0          Accepted for Prosecution:     12                                     0           Individuals Trained:   11,261
                                                                                                                                   Work Products:

                                                                                                                               Unpublished Work                     Hours of Training
                                                                                       Prosecution Denied:     1                                      0                                  11,161
                                                                                                                                       Products:                           Provided:
                                                                                   Referred for Alternative                                                        Outreach Sessions
                                                                                                               1                Cumulative Total:     6                                   135
                                                                                                Resolution:                                                              Conducted:
                                                                                        Cumulative Total:      15


                                                                                                                                                      DOT OIG Monthly Report Num 10 12-31-09
                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 12/31/2009

       No.                        OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On December 8, the DOT OIG initiated a review of security controls over ARRA websites. The objectives of this audit are
                     to determine if (1) DOT's recovery Websites and database systems are properly configured to minimize the risk of cyber
         1
                     attacks and (2) access to recovery Websites and database systems are adequately controlled to ensure accountability
                     and integrity of ARRA data.
                     On December 11, the DOT OIG initiated a review of DOT's oversight of Recovery Act recipient reporting. The objectives
                     of this review are to determine whether, during the first Section 1512 reporting cycle in October 2009, the Department (1)
         2
                     identified inaccurate data or missing recipient reports, (2) identified the cause(s) of the inaccurate data or missing
                     recipient reports, and (3) mitigated the causes/errors.
                     On December 22, the DOT OIG initiated an audit of DOT's implementation of single audit recommendations and cost
                     recovery. The objectives of this audit are to determine if DOT Operating Administrations have (1) issued management
         3           decisions approving grantees' corrective action plans, (2) ensured the prompt implementation of corrective actions by
                     grantees, (3) taken timely action to recover questions costs, and (4) used Single Audit results to identify grantees requiring
                     close monitoring.

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     In January, the DOT OIG plans to initiate an evaluation of high speed rail forecasting best practices. The objectives of
                     this evaluation will be to: (1) assess the strengths and weaknesses of various methodologies used to develop high speed
         1
                     rail and intercity passenger rail ridership and revenue forecasts, cost estimates, and public benefits valuations; and (2)
                     identify best practices in the preparation of these forecasts.
                     By March 31, the DOT OIG plans to initiate audits/reviews of the following: FAA's oversight of Recovery Act grant
                     expenditures, FHWA's oversight of higher dollar value Recovery Act highway projects, FHWA's oversight of improper
         2           payments, FRA's state-freight railroad capital agreements, FRA and states ability to plan and manage high speed rail
                     projects, FTA's oversight of major transit projects in the New York region, and FTA's oversight of grantees' Recovery Act
                     contract award and administration practices.
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
         3
                     to provide effective oversight to ARRA-funded projects and meet new requirements
         4           Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                     DOT OIG Monthly Report Num 10 12-31-09
                                                                                 OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 12/31/2009
           Date:


                                                                                             TRAINING ACTIVITIES
                                                                                                                                                       Hours of
                                                                                               Training                    Length of                   Training                 Presentation    Average
                                                    Target                                                    Date of                    Number of                   Cost of
     No.               Type of Training                              Title of Training      Location (City,                 Training                  Provided                   with Other    Evaluation
                                                   Audience                                                   Training                  Participants                 Training
                                                                                                State)                      (hours)                    (length x                    OIGs         Rating
                                                                                                                                                     participants)
                                                                  Fraud
       1         Fraud Prevention/Awareness      Mixed            Prevention/Awareness     Fort Worth, Texas 12/02/2009             1            20             20
                                                                  Briefing
                 Recovery Act                                     DOT Recovery Act Role Philadelphia,
       2                                         Mixed                                                        12/04/2009            1            80             80
                 Orientation/Overview                             and Responsibilities  Pennsylvania
                                                                  Fraud
                                                                                           Champaign,
       3         Fraud Prevention/Awareness      Private          Prevention/Awareness                        12/09/2009          0.5           200            100
                                                                                           Illinois
                                                                  Briefing
                                                                  Fraud
                                                                                           Cambridge,
       4         Fraud Prevention/Awareness      State            Prevention/Awareness                        12/15/2009            1            45             45
                                                                                           Massachusetts
                                                                  Briefing
                                                                  Fraud
                                                                                           Los Angeles,
       5         Fraud Prevention/Awareness      Federal          Prevention/Awareness                        12/16/2009            1            50             50
                                                                                           California
                                                                  Briefing
                                                                                                                            TOTAL               395            295


                                                OUTREACH ACTIVITIES

                                                  Number of
                                                 Organizations                                Outreach
                    Organization to which                             Description of                           Date of
     No.                                         Represented                                Location (City,
                     Outreach Provided                                  Outreach                              Outreach
                                                  at Outreach                                   State)
                                                    Session
                                                                DOT OIG's Recovery
                 Southern Colorado Threat
       1                                                      9 Act role and               Denver, Colorado   12/03/2009
                 Working Group
                                                                investigative priorities
                                                                  Discussed Recovery        Palm Beach,
       2         Palm Beach County                            1                                               12/07/2009
                                                                  Act oversight initiatives Florida
                                                                Discussed DOT OIG's
                 State Office of Minority and                   Recovery Act role and      Boston,
       3                                                      1                                               12/16/2009
                 Women Business Assistance                      responsibilities, and      Massachusetts
                                                                DBE fraud indicators
                                                                Discussed Recovery
       4         Miami Dade Transit                           1 Act compliance             Miami, Florida     12/17/2009
                                                                procedures

                                                                                                                                                                       Dote OIG Monthly Report Num 10 12-31-09
